     Department of Homeland Security

     ��������������������������


            DHS Conference Spending 





OIG-14-82                               April 2014

                        OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 I www.oig.dhs.gov


                                      April 25, 2014


MEMORANDUM FOR:              The Honorable Chip Fulghum
                             Acting Chief Financial Officer
                             Department of Homeland Security

FROM:                        JohnRoth       ~~
                             Inspector General

SUBJECT:                      DHS Conference Spending

Attached for your action is our final report, DHS Conference Spending. We incorporated
the formal comments from the Department in the final report.

The report contains five recommendations aimed at improving conference
spending. Your office concurred with all recommendations. Based on information
provided in your response to the draft report, we consider recommendation 3 closed,
and recommendations 1, 2, 4, and 5 open and resolved. Once your office has fully
implemented the recommendations, please submit a formal closeout letter to us within
30 days so that we may close the recommendations. The memorandum should include
evidence of completion of agreed-upon corrective actions and of the disposition of any
monetary amounts.

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Anne L. Richards, Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1

   Background ........................................................................................................................ 2

   Results of Audit ................................................................................................................... 3

              Estimated and Reported Conference Costs ............................................................ 3
              Recommendations .................................................................................................. 8
              Management Comments and OIG Analysis ........................................................... 8

              Use of Conference Planners................................................................................. .10
              Recommendations ................................................................................................ 12
              Management Comments and OIG Analysis ......................................................... 13

   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 15
              Appendix B:          Management Comments to the Draft Report ............................... 17
              Appendix C:          Chart of Unsupported Costs .......................................................... 20
              Appendix D:          Chart of Conferences Reviewed..................................................... 21
              Appendix E:          Major Contributors to This Report ................................................ 22
              Appendix F:          Report Distribution ........................................................................ 23

   Abbreviations
              CBP                   Customs and Border Protection
              CFR                   Code of Federal Regulations
              DHS                   Department of Homeland Security
              FEMA                  Federal Emergency Management Agency
              FMPM                  Financial Management Policy Manual
              FY                    fiscal year
              ICE                   Immigration and Customs Enforcement
              NPPD                  National Protection and Programs Directorate
              OMB                   Office of Management and Budget
              S&T                   Science and Technology Directorate
              TSA                   Transportation Security Administration
              USCIS                 U.S. Citizenship and Immigration Services




www.oig.dhs.gov                                                                                                                  OIG-14-82
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   The Department of Homeland Security (DHS) hosts or sponsors conferences to enhance
   its mission. These conferences bring DHS employees and stakeholders together to share
   information, deliver education or training, and coordinate and collaborate with other
   Federal and non-Federal stakeholders on common issues or goals. According to DHS,
   during fiscal year 2012, DHS components hosted or sponsored 35 conferences
   exceeding $100,000 at a total cost of $7.5 million. We conducted this audit as a follow-
   on to our prior report DHS' Policies and Procedures Over Conferences, OIG-13-96, to
   determine whether the DHS conference spending was appropriate, reasonable, and
   necessary.

   The amount DHS spent on conferences was appropriate, reasonable, and necessary in
   most instances. Conference packages submitted for approval stated the purpose of the
   conference. In addition, the conference agenda reflected appropriate content and
   encompassed full working days for the attendees. In many instances, the components
   made an effort to reduce conference costs by limiting the number of attendees and
   selecting a location within the local area.

   The Department needs to make further improvements in guidance related to
   conference record-keeping and add more specificity in guidance to ensure conference
   estimates and reported costs are accurate and have adequate documentation. DHS has
   established policies and procedures designed to ensure conference spending is
   appropriate and in the best interest of the Federal Government and taxpayers. DHS also
   has policies to ensure it complies with most aspects of the Office of Management and
   Budget’s guidance for conferences. In addition to these efforts, the Department
   continues to further develop guidance and initiate reviews of component conference
   spending.

   Components did not always accurately estimate or revise conference cost estimates
   when anticipated costs changed, and did not always accurately report final conference
   costs. We identified $329,438 in conference spending for which components did not
   provide adequate documentation. Additionally, components did not always
   demonstrate that using external conference planners was cost effective.
   Consequently, DHS cannot ensure that conference spending is always in the best
   interest of the Federal Government and taxpayers.

   We made five recommendations to the Department. Upon implementation, these
   recommendations should lead to more accurate estimating and reporting of conference
   costs; improve conference spending documentation, transparency, and accountability;


www.oig.dhs.gov                               1                                       OIG-14-82

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   and minimize external event planning costs. DHS has concurred with all five 

   recommendations. 



   Background
   DHS secures the nation from many threats through five core mission areas: prevent
   terrorism and enhance security, secure and manage U.S. borders, enforce and
   administer immigration laws, safeguard and secure cyberspace, and ensure resilience to
   disasters. More than 240,000 DHS employees are responsible for these missions, along
   with hundreds of thousands of people across Federal, state, local, and territorial
   governments; the private sector; and other nongovernmental organizations.

   DHS hosts, sponsors, and conducts conferences to enhance its mission. These
   conferences also bring DHS employees and stakeholders together to share information;
   deliver education or training; and coordinate and collaborate with other Federal and
   non-Federal stakeholders on common issues or goals. Conferences are pre-arranged
   events that typically include designated or registered participants, a defined agenda,
   and scheduled speakers or discussion panels on defined topics. The term conference
   encompasses meetings, retreats, seminars, symposia, or events that involve attendee
   travel, and also applies to training activities considered to be conferences under 5 Code
   of Federal Regulation (CFR) § 410.404.1

   In June 2011, the President’s Executive Order 13576, “Delivering an Efficient, Effective,
   and Accountable Government,” launched the Campaign to Cut Waste. This campaign
   intensified efforts to identify areas across the Government where waste or excess may
   exist, and to take immediate steps to address them. The Office of Management and
   Budget (OMB) issued Memorandum 11-35 in September 2011, instructing agencies to
   review their policies and internal controls for conference-related activities and
   expenses.

   In November 2011, the President signed Executive Order 13589, “Promoting Efficient
   Spending.” This Executive Order required that agencies develop plans to ensure efficient
   spending in several areas, including conferences. In May 2012, OMB issued
   Memorandum 12-12 instructing agencies to initiate senior-level review of all planned
   conferences, and senior-level approval for all future conference expenses exceeding
   $100,000. This memorandum also prohibited expenses in excess of $500,000 on a single
   conference without a waiver; and required agencies to report publicly on all agency-
   sponsored conferences with net2 expenses exceeding $100,000. In accordance with

   1
       41 CFR § 300-3.1
   2
       Net expenses are total costs less any fees or revenue received by the agency through the conference

www.oig.dhs.gov                                         2                                              OIG-14-82
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   OMB requirements, DHS publicly reported that for fiscal year (FY) 2012, it hosted or
   sponsored 35 conferences exceeding $100,000. The total cost of these 35 conferences
   was $7.5 million. This audit is a follow-on to our June 2013 report, DHS’ Policies and
   Procedures over Conferences audit, OIG-13-96. In that report, we determined that
   although DHS complies with most aspects of OMB’s guidance, DHS had not finalized its
   guidance on conferences, and had not always adhered to DHS policies on conference
   oversight. We performed this audit to determine whether DHS’ conference spending
   was appropriate, reasonable, and necessary.

   Results of Audit
   The amount DHS spent on conferences spending was appropriate, reasonable, and
   necessary in most instances. Conference packages submitted for approval stated the
   purpose of the conference. In addition, the conference agenda reflected appropriate
   content and encompassed full working days for the attendees. In many instances, the
   components made an effort to reduce conference costs by limiting the number of
   attendees and selecting a location within the local area.

    The Department needs to make further improvements in guidance related to
   conference record-keeping and add more specificity in guidance to ensure conference
   estimates and reported costs are accurate and have adequate documentation. DHS has
   established policies and procedures designed to ensure conference spending is
   appropriate and in the best interest of the Federal Government and taxpayers. The
   Department also has policies to ensure it complies with most aspects of OMB’s guidance
   for conferences. In addition to these efforts, the Department continues to further
   develop guidance and initiate reviews of component conference spending.

   Components did not always accurately estimate or revise conference cost estimates
   when anticipated costs changed, and did not always accurately report final conference
   costs. We identified $329,438 in conference spending for which components did not
   provide adequate documentation. Additionally, components did not always
   demonstrate that using external conference planners was cost effective. Consequently,
   the Department cannot ensure that the amount spent on conferences is always in the
   best interest of the Federal Government and taxpayers.

           Estimated and Reported Conference Costs

           Components did not always submit accurate or complete conference cost
           estimates to the Department or revise cost estimates when anticipated
           conference costs changed. DHS has established policies and procedures designed
           to ensure conference spending is appropriate and in the best interest of the

www.oig.dhs.gov                               3                                       OIG-14-82
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Federal Government and taxpayers. The Department also complies with most
           aspects of OMB’s guidance. DHS continues to further develop guidance on
           conferences and initiate oversight reviews of component conference spending.
           Accurate and detailed estimates are critical for ensuring conference approvals
           are based on valid and reliable cost information and that components have
           taken all reasonable steps to minimize conference costs.

           Additionally, components did not always report to the Department actual costs
           that were complete and accurate. Accurate reporting of conference costs is
           essential to furthering the transparency and accountability of Federal spending.
           Based upon problems identified with components’ estimating, documenting, and
           reporting of conference costs, DHS is at risk of approving conference
           expenditures that are not necessary, reasonable, or in the best interests of
           taxpayers. Furthermore, it may not provide complete transparency by reporting
           conference expenditures that are not accurate.

           Estimated Conference Costs

           Accurate and detailed cost estimates are essential during the approval process.
           DHS’ Financial Management Policy Manual (FMPM), Section 7.10.1 – Conference
           Controls, requires components to submit cost estimates when requesting the
           Deputy Secretary’s approval for conferences exceeding $10,000, and the
           Secretary’s approval for conference costs exceeding $500,000. Similarly, OMB
           Memorandum 12-12 requires the Deputy Secretary to review and approve all
           conferences estimated to exceed $100,000, and prohibits expenses in excess of
           $500,000 absent a waiver by the Secretary.

           In FYs 2012 and 2013, components did not consider all potential conference
           costs when preparing cost estimates and did not revise these estimates when
           anticipated conference costs changed. Consequently, cost estimates submitted
           to the Department for approval were not always reliable or accurate. For the FY
           2012 conferences we reviewed, supported costs exceeded approved estimated
           costs by an average of 33 percent and for FY 2013 conferences by an average of
           27 percent.

           DHS guidance does not require components to document the assumptions and
           methodologies used in developing conference cost estimates. Our audit
           identified numerous instances of inadequately developed estimates that DHS
           may have caught had it required such documentation:

                  •	 U.S. Citizenship and Immigration Services (USCIS) significantly
                     underestimated lodging costs for its FY 2012 USCIS Field Operations
                     Conference. Specifically, it estimated attendees’ lodging for one night

www.oig.dhs.gov                                    4	                                      OIG-14-82

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                     instead of four nights. As a result, the supported actual costs exceeded
                     the approved estimate by $104,801, or 121 percent.

                  •	 Immigration and Customs Enforcement (ICE) underestimated
                     transportation costs in its estimate for the FY 2012 ICE Intelligence
                     Training. Specifically, the estimate incorrectly included one-way fare
                     instead of round-trip fare. Additionally, the estimate did not include
                     miscellaneous travel costs such as baggage and parking fees, and used an
                     incorrect per diem rate. As a result, the supported actual cost exceeded
                     the approved estimate by $53,078, or 112 percent.

           DHS’ FMPM Section 7.10.1 also requires components to submit a justification
           when actual conference cost exceeds 10 percent of the approved estimated cost.
           However, it does not require resubmission of estimates for approval when
           estimated costs change. Therefore, components did not always resubmit
           updated estimates when anticipated conference costs changed:

                  •	 Customs and Border Protection (CBP) did not update its cost estimate
                     and seek DHS approval when it decided 34 travelers would stay an
                     additional day at its FY 2012 Office of Border Patrol Chief’s Conference,
                     resulting in additional costs of $8,228. CBP also did not include $9,445 for
                     baggage fees and lodging tax in its original estimate.

                  •	 CBP did not update the scheduled dates and cost estimates when it
                     rescheduled its FY 2013 East Coast Trade Symposium. The component
                     also did not estimate travel costs for this conference even though it
                     served as a training session for field and headquarters personnel. The
                     component could have anticipated such costs. CBP incurred travel costs
                     for this conference totaling $20,614. Ultimately, the total conference cost
                     was 156 percent more than the original estimate.

           Reported Conference Costs

           Accurate reporting of conference costs is essential to furthering the
           transparency and accountability of Federal spending. OMB Memorandum 12-12
           requires annual public reporting of all conferences exceeding $100,000. To meet
           this requirement, DHS requires components to submit a report quarterly for all
           conferences hosted that quarter. Senior component financial officials rely on
           data calls to conference coordinators or sponsors within the program offices to
           provide actual conference costs for quarterly and annual reporting to DHS.



www.oig.dhs.gov                                    5	                                       OIG-14-82

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Some component senior financial officials noted that they have limited resources
           to meet DHS reporting requirements; DHS reporting requirements are
           burdensome; or DHS guidance is not clear regarding how it defines conference
           spending reporting categories. Furthermore, components had difficulty
           assembling and producing documentation to support all reported conference
           costs, even after multiple requests by our office. Components noted limitations
           of existing procurement, financial, and travel management systems to identify
           costs related to specific conferences as a primary challenge. This challenge limits
           components’ ability to produce adequate documentation to support and
           facilitate the audit of reported conference costs.

           In FY 2013, DHS implemented a web-based approval and tracking tool for
           components to enter and submit conference approval requests and estimates
           and to report actual conference costs. However, DHS had not evaluated the
           accuracy of component reporting via this tool during our audit. DHS’ Office of
           Chief Financial Officer Risk Management and Assurance Division reviewed
           hosted conferences conducted during the first two quarters of FY 2013.
           However, its review primarily focused on compliance with required approvals
           and justifications. This review did not directly test the accuracy of component
           reporting of conference costs against supporting documentation, but identified
           instances of inaccurate and incomplete cost reporting.

           DHS did not report complete and accurate costs for all conferences in its FY 2012
           public conference report. Similarly, component quarterly conference spending
           reports for the first two quarters of FY 2013 were not complete or accurate.
           Furthermore, components could not provide adequate documentation to
           validate reported travel amounts as fully supported in all instances. We
           identified $161,460 in travel costs that were unsupported. For example:

                  •	 Federal Emergency Management Agency (FEMA) did not report $11,847
                     in costs incurred for use of an external travel coordinator in its FY 2012
                     Presidential Policy Directive 8: Mitigation Framework Stakeholder
                     Engagement Event conference. In addition, FEMA could not support
                     $3,872 in travel costs. FEMA reported $22,122 in travel costs for this
                     conference, but could only provide documentation for $18,250.

                  •	 FEMA reported $224,313 as the actual total cost of its FY 2012 National
                     Flood Conference. However, FEMA provided additional information that
                     reflected a conference cost of at least $243,048. Our reconciliation of
                     FEMA’s cost summary to supporting documentation disclosed the total
                     net conference cost might have been as much as $281,022. The


www.oig.dhs.gov                                    6	                                      OIG-14-82

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                      Component provided documentation for $124,887 in total travel costs,
                      but only reported $69,738.

                  •   FEMA reported that 185 invitational travelers attended its FY 2012
                      Continuity of Operations Strategic Planning Conference for States,
                      Territories, Tribes, and the District of Columbia at a cost of $243,528.
                      However, the component could not support $155,837 in travel costs and
                      only provided documentation for 118 invitational travelers.

                  •	 Science and Technology Directorate (S&T) submitted estimated rather
                     than actual costs in its quarterly report to DHS for its FY 2013 First
                     Responder Resource Group meeting. S&T reported costs of $147,553,
                     which reflected $55,200 in estimated planning costs not actually
                     incurred.

                  •	 National Protection and Programs Directorate (NPPD) provided no
                     documentation to support $1,752 in reported travel costs for its FY 2012
                     Federal Cyber Security Workshop and Conference.

                  •	 NPPD did not include $10,782 in venue and audio-visual costs for its FY
                     2013 SAFECOM Emergency Response Council Meeting in its quarterly
                     report to DHS.

           OMB Memorandum 12-12 provides that agencies should ensure that conference
           attendance and expenses are limited to only the levels required to carry out the
           mission of the conference. The Department’s ability to effectively assess and
           approve conferences diminishes when it does not have complete and accurate
           cost estimates. That includes planning costs already incurred or other costs that
           changed significantly after approval. Furthermore, conferences with actual costs
           exceeding $100,000 that were estimated below that amount may not have been
           reviewed and approved by the Deputy Secretary, as required.

           Accurate reporting of conference costs is important to ensure transparency and
           allow for historical cost analysis for reoccurring conferences. When components
           do not report conference costs accurately, the Department is not able to meet
           all Federal reporting responsibilities or gather reliable information to assess its
           conference spending.




www.oig.dhs.gov                                   7	                                      OIG-14-82

                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Recommendations

           We recommend that the Department of Homeland Security, Office of the Chief
           Financial Officer:

           Recommendation #1:

           Revise the Financial Management Policy Manual to require components to—

           a)	 Document assumptions and methodologies used to develop estimates on the
               Conference Activity Form.

           b)	 Update cost estimates and resubmit conference approval requests when
                  there is a change in planning assumptions that will affect costs, such as
                  location, fees, venue, attendance or dates.

           Recommendation #2

           Require the Risk Management and Assurance division to test the accuracy of
           conference costs reported to the Department in its future Annual Quality
           Reviews.

           Recommendation #3

           Work with component senior financial officials to define specific record-keeping
           requirements to ensure accurate and complete reporting of conference costs
           incurred. These requirements should ensure that adequate documentation, such
           as invoices, travel reports, contract files, and conference agendas, are
           maintained in a manner that facilitates timely audit or review.

           Management Comments and OIG Analysis

           In its response to our draft report, the Department concurred with all five of our
           recommendations. The Department stated that it makes every effort to ensure
           that conference controls are effective and that conference spending is driven by
           critical mission requirements. The Department also indicated that it took a
           proactive approach in managing conference spending by focusing on improving
           efficiencies. Some of the efficiencies implemented by the Department include (1)
           maximizing the use of government office space and facilities for training events
           and meetings, (2) limiting the number of DHS attendees to a conference, and (3)
           holding conferences on a biennial rather than annual basis. According to the


www.oig.dhs.gov                                    8	                                         OIG-14-82

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Department, total conference spending decreased by more than 50 percent from
           FYs 2012 to 2013.

           Recommendation #1: Concur. Although the Office of the Chief Financial Officer’s
           Financial Management Division no longer uses the Conference Activity Form to
           track costs, components will be required to submit any assumptions and
           methodologies used in calculating conference costs as part of their submission
           via a new Web-based cost-tracking tool. The Department also stated that Section
           7.10 of the revised FMPM requires components to resubmit a conference for
           approval when changes in assumptions and methodologies increase the
           estimated cost of a conference or expand conference dates. According to the
           Department, a new policy to implement this revision has been drafted and is in
           the final clearance process. The Department expects to implement the policy by
           April 30, 2014.

           OIG Analysis: The Department’s response to this recommendation addresses the
           intent of the recommendation. This recommendation is resolved and will remain
           open until the Department provides evidence that components are required to
           submit assumptions and methodologies used in calculating conference costs.
           The component should also provide a copy of the new policy memo, once
           implemented.

           Recommendation #2: Concur. According to the Department, the Office of the
           Chief Financial Officer’s Risk Management and Assurance division began testing
           reported conference costs as part of its semi-annual quality reviews in January
           2014. The testing of FY 2013 third and fourth quarter conferences will include a
           report on the accuracy of conference costs for each conference tested.

           OIG Analysis: The Department’s response to this recommendation addresses the
           intent of the recommendation. This recommendation is resolved and will remain
           open until the Department provides the Risk Management and Assurance
           division’s methodology for its annual quality reviews. Specifically, the
           Department will need to provide documentation to support the nature and
           extent of its testing for conference cost accuracy. We will close this
           recommendation upon determining that the evidence provided meets the intent
           of this recommendation.

           Recommendation #3: Concur. According to the Department, the Office of the
           Chief Financial Officer’s Financial Management division distributed a memo on
           February 25, 2014, to component senior financial officials. This memo advises
           the components of the Department’s record-keeping guidelines and the need for
           readily available conference documentation. It also indicates that components

www.oig.dhs.gov                                9                                       OIG-14-82

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           should not need longer than 14 calendar days to respond to a conference data
           call, audit, or internal control review.

           OIG Analysis: We received a copy of the memo referenced in the Department’s
           official response to this report. DHS distributed the memo to Senior Financial
           Officers for the various DHS components. The document outlines the types of
           conference documentation components should retain. It also indicates the
           timeframes for which components should be able to provide conference
           documentation in response to inquiries. For conferences held in FY 2012 and
           after, components should retain documentation in such a way that they can
           respond to inquiries within 14 days. For conferences held prior to FY 2012,
           components should be able to provide documentation to requesters within 30
           days. We reviewed this document and believe it meets the intent of our
           recommendation. Therefore, we are closing this recommendation.

           Use of Conference Planners

           Cost minimization is a critical consideration in conference planning to ensure
           that costs are reasonable. Conference planners play a key role in determining
           how much a conference will cost. Conference planning may be performed using
           component staff or an external conference planner.

           FEMA, NPPD, and Transportation Security Administration (TSA), used external
           conference planners for four conferences. These components did not always
           maintain adequate documentation to support all costs incurred for external
           conference planners. They did not demonstrate that external conference
           planners were the most cost-effective means for planning a conference.
           Additionally, these components did not always ensure that external conference
           planners appropriately considered Government-owned facilities when
           determining proposed conference locations.

           We identified $167,978 in costs that were unsupported because the component
           did not have detailed invoices or contractors’ cost reports or did not provide
           documentation to support the reported costs. Specifically,

                  •	 FEMA relied on a contractor to provide travel coordination services for
                     invitational travelers attending its Presidential Policy Directive 8
                     Mitigation Framework Stakeholder Engagement Event conference in FY
                     2012. The contractor invoiced FEMA for $5,567 in other direct costs, but
                     no supporting detail describing these costs was provided.



www.oig.dhs.gov                                  10                               	      OIG-14-82

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                  •	 A contractor planned FEMA’s FY 2012 National Flood Conference and was
                     paid $216,723 for its services. FEMA provided only an Excel spreadsheet
                     of summary costs for $151,119 in contractor’s costs noted as finance,
                     graphics, execution, or information technology.

                  •	 NPPD used an external conference planner for its Federal Cyber Security
                     Conference and Workshop. NPPD provided an invoice as well as the
                     contractor’s final cost report to support the planning costs. However, we
                     could not reconcile $11,292 in costs for contractor travel, printing,
                     materials, and supplies noted on the cost report to the related invoice.

           There was not sufficient evidence to determine that these costs were accurate, 

           allowable, or reasonable without adequate detailed information from the event 

           planning contractors. DHS’ FMPM requires components to identify, document, 

           track, and review costs related to conference planning and to maintain 

           documentation related to conference planning in a manner that allows for audit 

           review and management inquiry. However, DHS did not evaluate the accuracy of 

           reported conference costs and ascertain whether components maintained 

           adequate documentation to support costs in the Annual Quality Control Review. 


           The Federal Travel Regulation Appendix E to Chapter 301—Suggested Guidance 

           for Conference Planning, indicates that conference planning should begin at least 

           one year in advance of the conference, depending on the conference size, type, 

           and intended effect. However, components did not always limit conference-

           planning costs or disclose the full conference-planning cost to DHS. 

           Specifically, 


                  •	 TSA did not include $33,520 in conference planning costs already
                     incurred when it requested DHS approval for its FY 2013 International
                     Pipeline Security Forum in San Diego, California. Ultimately, external
                     event planning costs for this conference totaled $67,040, or double the
                     approved estimated amount, and accounted for 64 percent of the
                     $105,564 total cost of the conference. TSA reported that 158 participants
                     attended the conference, equaling conference planning costs of about
                     $424 per attendee. .

                  •	 NPPD awarded a $1.6 million contract for an external conference planner
                     to support its National Cyber Security Division Fiscal Year 2012
                     conferences. Although NPPD did request DHS approval of the conference-
                     planning contract, it did not disclose that the contract contained about
                     $523,853 in firm-fixed pricing for audio-visual equipment and contract-
                     level management. Rather, NPPD said it would submit future approval
www.oig.dhs.gov                                  11                                	      OIG-14-82

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                  requests for each conference and would not incur costs for any
                  conference not approved by DHS. NPPD subsequently requested DHS
                  approval in June 2012, to host its Government Forum of Incident
                  Response and Security Teams Conference, which contained estimated
                  audio-visual costs of $201,960 and conference planning costs of
                  $132,860. When the Department questioned the reasonableness of these
                  costs, NPPD officials said they could not minimize the costs because the
                  contract required NPPD to spend the fixed sum by September 30, 2012.

           The Federal Travel Regulation, Section 301-74.1, requires conference planners to
           take steps to maximize the use of Government-owned conference facilities. DHS’
           FMPM permits conference planners and approving officials to use privately-
           owned conference space only if appropriate Government-owned space is
           unavailable. Yet, TSA did not always demonstrate that external conference
           planners considered Government-owned conference facilities.
           Specifically, TSA did not require its external conference planner to maximize the
           use of Government-owned facilities for its FY 2013 International Pipeline Security
           Forum in San Diego, California. TSA's contract required the external conference
           planner to perform a cost comparison of at least three venues so TSA could
           select the venue with the lowest costs. However, TSA did not provide
           documentation to support that the conference planner considered Government-
           owned facilities. Furthermore, the contract between TSA and the venue used for
           this conference allowed the external event planner to collect a 10 percent
           commission on hotel rooms booked in connection with the conference.

           Although the Federal Travel Regulation does not prohibit the use of external
           event planners, it requires agencies to minimize all conference-related costs and
           maximize use of Government-owned or -provided conference facilities. Without
           adequate documentation to support external conference planning costs, DHS
           cannot reasonably assure that such spending was allowable, reasonable, or
           appropriately minimized.




www.oig.dhs.gov                                12                                       OIG-14-82

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Recommendations

           We recommend that the Department of Homeland Security, Office of the Chief
           Financial Officer:

           Recommendation #4:

           Require the Risk Management and Assurance Division, as part of its Annual
           Quality Control Review, to determine whether components maintain adequate
           documentation to support all reported conference-related costs. This
           determination should be made in conjunction with testing to evaluate the
           accuracy of reported conference-related costs.

           Recommendation #5:

           Strengthen its Financial Management Policy Manual by:

                  a)	 Establishing a maximum threshold allowable, with any limited exceptions
                      approved only by DHS, for external event planning costs. This threshold
                      should represent a maximum amount considered reasonable and
                      necessary to identify potential conference locations and develop itemized
                      cost estimates needed to submit a conference approval request.

                  b) Requiring components to identify the amount of firm-fixed pricing and
                     obtain approval for any external conference planning contracts that
                     contain such pricing prior to contract award.

                  c)	 Requiring components to demonstrate that external conference planners
                      consider the use of Government-owned conference facilities before
                      considering private facilities.

           Management Comments and OIG Analysis

           Recommendation #4: Concur. According to the Department, the Risk
           Management and Assurance Division incorporated testing of documentation
           adequacy for all conference-related costs into its semi-annual quality reviews in
           January 2014. Conference testing reports for FY 2013 third and fourth quarters
           will include full details on the adequacy of the documentation for each
           conference tested. The Department estimated it will complete this effort by April
           30, 2014.




www.oig.dhs.gov                                  13                                	      OIG-14-82

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           OIG Analysis: This recommendation is resolved and will remain open until the
           Department provides documentation to support the nature and extent of its
           testing for adequacy of documentation. We will close this recommendation upon
           determining that the evidence provided meets the intent of this
           recommendation.

           Recommendation #5: Concur. According to the Department, the Office of the
           Chief Financial Officer’s Financial Management Division will revise the FMPM no
           later than April 30, 2014. The revision will specifically disallow external
           conference planning services except under exceptional circumstances. The use of
           any conference planner at any cost requires the specific approval of the Deputy
           Secretary. In such instances, the component will be required to document the
           business need, identify the amount of firm-fixed pricing, and obtain Deputy
           Secretary approval before any contract is awarded. In addition, a new policy
           memo will require components to consider the use of Government-owned
           conference facilities before considering private facilities. The Department
           expects to complete this policy memo by April 30, 2014.

           OIG Analysis: The Department’s response to this recommendation addresses the
           intent of the recommendation. This recommendation is resolved and will remain
           open until the Department provides a copy of the revised FMPM and new policy
           memo. Upon review of this documentation and determining that they meet the
           intent of our recommendation, we will close the recommendation.




www.oig.dhs.gov                              14                                      OIG-14-82

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   We performed this audit to determine whether DHS conference spending was
   appropriate, reasonable, and necessary. To achieve our audit objective, we identified
   and reviewed applicable Federal laws, regulations, Office of Management and Budget
   guidance, DHS policies and procedures, and other Federal agencies’ best practices
   regarding conferences. For each of the conferences we selected for review, we analyzed
   conference estimates and reported costs, and reviewed documentation for conference
   approvals and determination of actual conference costs. We interviewed DHS officials
   within the Office of the Chief Financial Officer directly involved in the DHS conference
   approval, reporting, and oversight process. We also interviewed DHS employees from
   the United States Customs and Border Protection, Federal Emergency Management
   Agency, United States Immigration and Customs Enforcement, Office of Intelligence and
   Analysis, Science and Technology Directorate, Transportation Security Administration,
   and United States Citizenship and Immigration Services.

   Our audit scope covered DHS-hosted or sponsored conferences exceeding $100,000 in
   total reported conference costs during FY 2012 through the second quarter of FY
   2013. We obtained and reviewed conference-spending data for our scope period from
   DHS, which totaled 85 conferences with a total cost of $16.2 million. To determine the
   reliability of DHS-reported data, we compared it to component-reported data and
   looked for anomalies.

   Although our analysis and detailed testing of DHS conference spending data disclosed
   instances of incomplete or inaccurate data, as discussed in the body of our report, we
   determined the conference spending data was sufficiently reliable for the purposes of
   meeting our audit objective and supporting our audit findings.

   To determine whether conference spending was reasonable, appropriate, and
   necessary, we selected a judgmental sample of 16 conferences (19 percent) to review in
   detail. The cost of these conferences totaled $3.4 million (21 percent). For those
   conferences sampled, we reviewed and analyzed conference cost estimates and
   approval packages submitted to DHS. We also reviewed contracts, invoices and
   procurement requisitions, travel expenditure reports, and other documentation such as

www.oig.dhs.gov                               15                                       OIG-14-82

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   agendas, registration or attendance listings, conference fee plans, and justifications
   related to DHS conferences.

   We documented the estimated conference costs submitted to DHS for approval, the
   total actual costs reported by component, and the conference costs adequately
   supported by sufficient documentation. The results of our review were used to
   determine whether the conference spending was appropriate based on whether
   expenses were authorized and not prohibited by law, regulation, or policy; necessary
   based on whether the expenses contributed to the authorized function or mission; and
   reasonable based on our assessment as to whether the expenses were not excessive
   and would be incurred by a prudent person in the conduct of competitive business.

   We conducted this performance audit between May 2013 and November 2013 pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                                16                                           OIG-14-82

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                             II.S.   lle~artment   of Homeland Security
                                                                                             Wa<hington, DC 20528




                                                                                             Homeland
                                                                                             Security
                                                             February 28, 2014


                  MEMORANDUM FOR:                Carlton I. Mann
                                                 Chief Operating Officer
                                                 Office of Inspector General

                  FROM:                          Jim H. Crumpacker    ~~
                                                 Director                               ~
                                                 Departmental GA0-0        Liaison   ffice

                  SUBJECT:                       OlG Draft Report: "DHS Conference Spending"
                                                 (Projectl'o. 13-144-AUD-DHS)


                  Thank you for the opportunity to review and comment on this draft report. The TJ.S. Department of
                  llomeland Security (DHS) appreciates the Office of Inspector General's (OIG's) work in planning and
                  conducting its review and issuing this report.

                  DI-IS is pleased to note that OIG concluded that D HS "conference spending was appropriate,
                  reasonable, and necessary in most instances" and that "DHS h as established policies and procedures
                  designed to ensure conference spending is appropriate and in the best interest of the Pederal
                  Government and taxpayers." !JHS makes every effort to ensure that conference controls are effective
                  and that conference spending is driven by critical mission requirements and is in the best interest of the
                  Government and taxpayers.

                  DHS has proactively addressed the management of con ferem:e spend ing and focused on e fficiencies.
                  This resulted in a decrease in total conference spending by more than 50 percent from Fiscal Year
                  (FY) 2012 to FY 2013. Some of the efficiencies the Department has put in place include:

                     •   Maximizing the use of government office space and facilities for training events and meetings
                         instead of renting more costly meeting space;
                     •   Limiting the number ofDHS attendees to a conference; and
                     •   H olding conferenc~ on a biennial rather than annual basis.

                  The draft report contained five recommendations with which the Department concurs. Specifically,
                  OIG recommended the DHS Office of the Chief Financial Officer (OCFO):




www.oig.dhs.gov                                                 17                                                                        OIG-14-82

                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report



                  Recommendation l : Revise the Financial Management PoliLy Manuul to requi.re
                  Components to -

                     a) Document assumptions and methodologies used lo devdop estimates on the
                        Conference Activity Form.

                     b) l Jpdate cost estimates and resubmit conference approval requests if there is a change
                        in planning assumptions that will affect costs, such as location, fees, venue,
                        attendance or conference dates.

                  Response: Concur. While OCFO' s Financial Management (Fl'vf) division no longer uses the
                  Conference Activity Form to track cost~ , Components will be n:quired to submit any
                  assumptions and methodologies used in calculating the cost of a conference as part of their
                  submission via a new Web-based cost tracking tool.

                  The revised Financial Management Policy Manual, Section 7 .I 0 requires Components to
                  resubmit a conference for approval when changes in assumptions and methodologies i n cre~se
                  the estimaleu wst of a conference or expand the dates when a conference is held. A new
                  policy memo to implement this revision has been written and is in fmal clearance process.
                  Estimated Completion Date (ECD): April30, 20 14.

                  Recommendation 2: Require the Risk Management and Assurance division to test the
                  accuracy of conference costs reported to the Department in its future Annual Quality
                  Reviews.

                  Response: Concur. OCFO's Risk Management and Assurance (RM&A) division
                  incorporated the direct testing of reported conference costs into its semi-annual quality
                  reviews beginning in January 2014. The testing ofFY 20 13 Third and Fourth Quarter
                  conferences will include a report on the accuracy of conference costs for each conference
                  tested. We request that OlG consider this recommendation resolved and closed.

                  Recommendation 3: Work with Component senior financial officials to define specific
                  record-keeping requirements to ensure accurate and complete reporting of conference costs
                  incurred. These requirements should ensure that adequate documentation, such as invoices,
                  travel reports, c.ontract file s, and conference agendus, are maintained in a manner that
                  facilitates timely audit or review.

                  Response: Concur. FM distributed n memo on February 25,2014, to Component senior
                  financial officials advising them of the Department's record-keeping guidel ines, !.hat
                  conference documentation should be readily available, and that Components should not need
                  longer than 14 calendar days to respond to a conference data call, audit, or internal control
                  review. We request that 0!(1 consider this recommendation resolved and closed.

                  Recommendation 4: Risk Management and Assurance division, as part of its Annual
                  Quality Control Review, tn determine whether adequate documentation is maintained by the
                  components to support ali reported conference-related costs. This determination should be


                                                                                                                  2




www.oig.dhs.gov                                                18                                                     OIG-14-82

                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report



                  made in conjunction wim testing to evaluate the accuracy of reponed con ferenct!-related
                  costs.

                  Response: Concur. RM&A incorporated me te sting for adequacy of documentation for all reported
                  conference-related costs into its semi-annual quality reviews in January 2014. Third and Fourth
                  Quarter conference testing reports will include full details on me adequacy of m e documentation for
                  each conference tested. The ftrst opportunity to conduct this testing within the testing cycle will be
                  March 31, 2014. ECD: April30, 2014.

                  Recommendation 5: Strengthen its Financial Management Policy Manual by:

                     a) Establishing a maximum threshold allowahle, with any limited exceptions approved only by
                        DHS, for external event planning costs. This threshold should represent a maximum amount
                        considered reasonable and necessary to identify potential conference locations and develop
                        itemized cost eslimalt!s needed to submit a conference approval request.

                     b) Requiring Components to identify the amount of firm-fixed pricing and obtain approval for any
                        external conference planning contracts that contain such pricing prior to contract award.

                     c) Requiring Components to demonstrate that external cunfen:nce planm:rs consider Lht!
                        use of Government-owned conference facilities before considering private facilities.

                  Response: Concur. FM will revise the Financial Managemenl Policy Manual, Section 7.10
                  no later than April 30, 2014 to specifically disallow external conference planning services.
                  Under exceptional circumstances, a Component may request to use an external conference
                  planner. The use of any conference p lanner at any cost requires the specific approval of the
                  Deputy Secretary.

                  In the rare event that an external conference planner is required, Components will document the
                  business need, identify the amount of fum-fixed pricing, and o btain Deputy Secretary approval before
                  any contract is awarded.

                  When hosting or sponsoring a conference, Components are required to consider me use of
                  Government-owned t.:on ference fac ilities before considering private facilities. A new policy
                  memo to implement this revision has been written and is in final clearance process.
                  ECD: April, 30, 2014.

                  Again, thank you for the opportunity to review and comment on this draft report. Technical
                  comments were previously provided under separate cover. P lease feel free to contact me if
                  you have any questions. We look forward to working with you again in the future.




                                                                                                                           3




www.oig.dhs.gov                                                 19                                                             OIG-14-82

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix C
   Chart of Unsupported Costs
                       Unsupported Costs by Component Conference
                                                       Total          Total
                                                     Reported      Unsupported
                         Conference                    Costs          Costs
         FY 2012 PPD8 Mitigation Stakeholder
    FEMA Event                                         $111,515      $9,438
    FEMA FY 2012 National Flood Conference             $224,313     $151,119
         FY 2012 Continuity of Operations Strategic
         Planning Conference for States,
         Territories, Tribes, and the District of
    FEMA Columbia                                      $339,627     $155,837
            FY 2012 Federal Cyber Security
    NPPD    Conference and Workshop                    $174,706      $13,044
                                               Total   $850,161     $329,438




www.oig.dhs.gov                                20                                OIG-14-82

                                              OFFICE OF INSPECTOR GENERAL
                                                      Department of Homeland Security


   Appendix D
   Chart of Conferences Reviewed
                                                                                    Fiscal Year 2012
                                                                                                                                                                   Percentage of
                                                                     Location of                       Publicly Reported Actual Supported       Actual Minus           Actual
     #   Comp     Conference Name        Start Date     End Date                          Estimated
                                                                       Event                                 Cost*       by Documentation        Estimated          Over/Under
                                                                                                                                                                     Estimated
                OBP Chief's
    1 CBP                                6/26/2012     6/27/2012    Chicago, IL       $      76,639    $       100,020   $       100,020    $            23,381        31%
                Conference
                Operation Global                                    Burlingame,                      Not Reported -
    2 CBP                                8/14/2012     8/16/2012                      $     125,190                      $       113,695    $           (11,495)       -9%
                Infrastructure                                      CA                              training
                Presidential Policy
                Directive 8 Mitigation
                                                                    Kansas City,
    3 FEMA      Framework                1/24/2012     1/27/2012                      $      76,212    $       111,515   $       120,264    $            44,052        58%
                                                                    MO
                Stakeholder
                Engagement Event
                National Flood
    4 FEMA                               5/7/2012       5/9/2012    Austin, TX        $     348,418    $       224,313   $       247,067    $          (101,351)       -29%
                Conference
                Continuity of
                                                                    Rochester,
    5 FEMA      Operations Strategic     7/24/2012     7/26/2012                      $     257,717    $       339,627   $       191,394    $           (66,323)       -26%
                                                                    NY
                Planning Conference
                National Preparedness                               Crystal City,
    6 FEMA                               8/7/2012       8/9/2012                      $     248,663    $       141,769   $       219,855    $           (28,808)       -12%
                Symposium                                           VA
                ICE Intelligence                                    New                                Not Reported -
    7 ICE                                5/30/2012     5/31/2012                      $      47,266                      $       100,344    $            53,078       112%
                Training                                            Orleans, LA                       training
                Federal Cyber Security                                                Not
                                                                    Baltimore,
    8 NPPD      Conference and           10/3/2011     10/6/2011                     submitted         $       174,706   $       174,706    $           174,706        100%
                                                                    MD
                Workshop 2011                                                        for approval
    9 USCG      USCG Innovation Expo 10/25/2011        10/27/2011 Tampa, FL           $ 1,228,000      $     1,240,764   $     1,235,682    $             7,682         1%
                Field Operations
    10 USCIS                             3/6/2012       3/8/2012    Leesburg, VA $           86,329    $       190,788   $       191,129    $           104,800        121%
                Conference
                                                                                                    Not Reported -
                National Fusion
                                                                                                    DOJ was primary
    11 I&A      Center Analytic          11/1/2011     11/3/2011    Atlanta, GA       $      23,122                      $        25,583    $             2,461        11%
                                                                                                    host and funded
                Workshop
                                                                                                    with grant


    *Conferences publically reported in the Department of                                                                                Average Percentage
    Homeland Security Fiscal Year 2012                                  Total         $ 2,517,556      $     2,523,502   $     2,719,739 of Actual Over/Under          33%
    Annual Report on Conferences                                                                                                         Estimated

                                                                                    Fiscal Year 2013
                                                                                                                                                                   Percentage of
                                                                                                       Reported to DHS
                                                                     Location of                                        Actual Supported        Actual Minus           Actual
     #   Comp     Conference Name        Start Date     End Date                          Estimated      in Quarterly
                                                                       Event                                           by Documentation          Estimated          Over/Under
                                                                                                           Report**
                                                                                                                                                                     Estimated
                2012 East Coast Trade                               Washington,
    1    CBP                             11/27/2012    11/28/2012               $            23,538    $       180,419   $        60,343    $            36,805        156%
                Symposium                                           DC
                First Responder
                Resource Group                                      Arlington,
    2    S&T                             12/4/2012     12/6/2012                      $     193,724    $       147,553   $        76,656    $          (117,068)       -60%
                (FRRG) Fall 2012                                    VA
                Meeting
                State and Local                                     Washington,
    3    I&A                             12/5/2012     12/7/2012                $           134,250    $       109,500   $       111,940    $           (22,310)       -17%
                Program Office Offsite                              DC
                SAFECOM EC/ERC                                      Philadelphia,
    4    NPPD                            11/13/2012    11/16/2013                 $         168,250    $       105,422   $       130,934    $           (37,316)       -22%
                MEETING                                             PA
                International Pipeline                              San Diego,
    5    TSA                             10/24/2012    10/25/2012                     $      59,424    $       103,566   $       105,564    $            46,140        78%
                Security Forum                                      CA

                                                                                                                                         Average Percentage
    **Conference spending reported to DHS as part of quarterly
                                                                        Total         $     579,186    $       646,460   $       485,437 of Actual Over/Under          27%
    reporting required by Components
                                                                                                                                         Estimated




www.oig.dhs.gov                                                             21                                                                     OIG-14-82

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix E
   Major Contributors to This Report
   Brooke P. Bebow, Director
   Sharon Trodden, Audit Manager
   Maryann Pereira, Audit Manager
   Melissa Woolson Prunchak, Program Analyst-in-Charge
   April Evans, Program Analyst
   Ruth Gonzalez, Program Analyst
   Dawn Pizarro, Auditor
   Peter Christopher, Program Analyst
   Kevin Dolloson, Communications Analyst
   Scott Crissey, Independent Referencer




www.oig.dhs.gov                           22                    OIG-14-82

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer
   CBP Audit Liaison
   FEMA Audit Liaison
   ICE Audit Liaison
   NPPD Audit Liaison
   S&T Audit Liaison
   TSA Audit Liaison
   USCG Audit Liaison
   USCIS Audit Liaison
   USSS Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  23                        OIG-14-82

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
